<html>
<title> - AN OVERVIEW OF SBA'S 7(A) LOAN PROGRAM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]










                 AN OVERVIEW OF SBA'S 7(A) LOAN PROGRAM

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON INVESTIGATIONS, OVERSIGHT, AND REGULATIONS

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             MARCH 9, 2017

                               __________


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                          

            Small Business Committee Document Number 115-008
              Available via the GPO Website: www.fdsys.gov



                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-525                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




























                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        TRENT KELLY, Mississippi
                             ROD BLUM, Iowa
                         JAMES COMER, Kentucky
                 JENNIFFER GONZALEZ-COLON, Puerto Rico
                          DON BACON, Nebraska
                    BRIAN FITZPATRICK, Pennsylvania
                         ROGER MARSHALL, Kansas
                                 VACANT
               NYDIA VELAZQUEZ, New York, Ranking Member
                       DWIGHT EVANS, Pennsylvania
                       STEPHANIE MURPHY, Florida
                        AL LAWSON, JR., Florida
                         YVETTE CLARK, New York
                          JUDY CHU, California
                       ALMA ADAMS, North Carolina
                      ADRIANO ESPAILLAT, New York
                        BRAD SCHNEIDER, Illinois
                                 VACANT

                   Kevin Fitzpatrick, Staff Director
                       Jan Oliver, Chief Counsel
                Adam Minehardt, Minority Staff Director
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Trent Kelly.................................................     1
Hon. Alma Adams..................................................     2

                               WITNESSES

Ms. Sonya McDonald, Executive Vice President and Chief Lending 
  Officer, Randolph Brooks Federal Credit Union, Universal City, 
  TX, testifying on behalf of the National Association of 
  Federally-Insured Credit Unions................................     4
Ms. Cindy Blankenship, Vice Chairman, Bank of the West, 
  Grapevine, TX, testifying on behalf of the Independent 
  Community Bankers of America...................................     5
Mr. Tony Wilkinson, President and CEO, National Association of 
  Government Guaranteed Lenders, Washington, DC..................     7
Mr. Edward C. Ashby, III, President & CEO, Surrey Bank & Trust, 
  Mount Airy, NC, testifying on behalf of the American Bankers 
  Association....................................................     8

                                APPENDIX

Prepared Statements:
    Ms. Sonya McDonald, Executive Vice President and Chief 
      Lending Officer, Randolph Brooks Federal Credit Union, 
      Universal City, TX, testifying on behalf of the National 
      Association of Federally-Insured Credit Unions.............    22
    Ms. Cindy Blankenship, Vice Chairman, Bank of the West, 
      Grapevine, TX, testifying on behalf of the Independent 
      Community Bankers of America...............................    37
    Mr. Tony Wilkinson, President and CEO, National Association 
      of Government Guaranteed Lenders, Washington, DC...........    51
    Mr. Edward C. Ashby III, President & CEO, Surrey Bank & 
      Trust, Mount Airy, NC, testifying on behalf of the American 
      Bankers Association........................................    57
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    CUNA - Credit Union National Association.....................    63

 
                 AN OVERVIEW OF SBA'S 7(A) LOAN PROGRAM

                              ----------                              


                        THURSDAY, MARCH 9, 2017

                  House of Representatives,
               Committee on Small Business,
    Subcommittee on Investigations, Oversight, and 
                                       Regulations,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 11:00 a.m., in 
Room 2360, Rayburn House Office Building, Hon. Trent Kelly 
[chairman of the Subcommittee] presiding.
    Present: Representatives Kelly, Chabot, Blum, Bacon, 
Marshall, Adams, and Velazquez.
    Chairman KELLY. Good morning. Thank you all for being with 
us today. I call this hearing to order.
    Our startups, our entrepreneurs, our small businesses, the 
true engines of our economy, continue to experience a rigid 
lending environment. While large companies are turning to debt 
and equity markets to raise capital, small businesses all over 
the country regularly turn to conventional bank lending to 
finance their projects. At times, small firms cannot access 
conventional lending, so they have nowhere to turn for the 
capital to grow their business or create jobs. Despite being 
creditworthy, they often do not have the proven track record 
for traditional lending. Instead of turning away the next great 
American company, lenders can work with small businesses and 
provide access to SBA's numerous lending programs.
    We are here to talk about one of these lending programs 
today. The Advantage Loan Program, widely known as the 7(a) 
Loan Program, provides creditworthy small businesses the 
opportunity to receive capital if traditional lending is not 
available. The program, which is currently running at zero cost 
to the American taxpayer, does not provide direct loans; 
rather, the SBA offers guarantees of repayments made to 
lenders. With the recent growth of the program in terms of loan 
approvals, loan amounts, and the congressionally authorized 
lending limit, it is important for our Committee to 
comprehensively review the program. Does SBA have the correct 
tools in place to provide oversight? Where should there be 
improvement? Is the Credit Elsewhere Test, the test which 
determines whether or not a small business is able to obtain 
capital from traditional options, strong enough?
    The hearing today will kick off a series of conversations 
focused on the 7(a) Loan Program.
    Today, the Subcommittee will hear directly from the 
lender's window, those financial institutions participating in 
the program.
    I appreciate each of the witnesses for being here today. I 
look forward to your testimony.
    I now yield to Ranking Member Adams for opening remarks.
    Ms. ADAMS. Thank you, Mr. Chair. And I want to thank 
Ranking Member Velazquez for being here as well. And to all of 
our witnesses.
    With the economy showing continued growth, it is important 
to ensure that small businesses have the tools and the 
resources that they need to prosper. And in order for small 
firms to play their traditional job-creating role, a number of 
factors must be in place. Perhaps the most important ingredient 
is the availability of capital. Lending through the Small 
Business Administration is always critical for entrepreneurs 
seeking affordable capital to start new ventures and expand 
existing businesses.
    SBA loan programs fill a critical gap in the market for 
small businesses that cannot access traditional lending 
sources. In particular, SBA's 7(a) Loan Program is a public-
private partnership that helps private lenders provide capital 
to small businesses that would not normally qualify for credit 
on reasonable terms. In recent years, 7(a) loans have 
experienced unprecedented growth, making this hearing 
particularly timely today. While over 64,000 loans totaling $24 
billion was supported in fiscal year 2016, only 26 percent of 
7(a) loans went to minorities, and only 18 percent to women-
owned firms. This is simply unacceptable.
    In addition to these underwhelming numbers, the SBG OIG has 
identified lender oversight as a serious management challenge 
for SBA. The OIG first raised their concerns in fiscal year 
2001, and the issue continues to this very day. As the 7(a) 
Loan Program grows, it is vital for the SBA to have the 
resources in place to conduct lender oversight and to guarantee 
that all entrepreneurs, no matter what gender or race, have 
equal opportunities to utilize the program.
    I look forward to hearing from our witnesses and gaining 
their insights on making the SBA's flagship program work even 
better for small businesses. It is vital that loans in the 7(a) 
programs are targeted to businesses who need them most, 
particularly those who have been unable to secure capital 
through private channels. Putting capital in the hands of 
businesses that need it most will help further the economic 
development of America's small businesses.
    So on that note, again, I would like to thank our witnesses 
for taking time to be here. Your views and experiences, of 
course, will be valuable to the Subcommittee as we consider how 
best to meet the entrepreneurs' capital needs.
    Thank you, Mr. Chair. I yield back.
    Chairman KELLY. Thanks to the ranking member. And this is 
such a bipartisan Committee, and I really thank the ranking 
member for her support and being here today and her timely 
comments.
    If the Committee members have an opening statement 
prepared, I ask that they be submitted for the record.
    I would like to take a moment to explain the timing lights 
to you. You will each have 5 minutes to deliver your testimony. 
The light starts out as green. It will turn yellow, and 
finally, after, when you have 1 minute remaining, that means 
start wrapping up, and finally, at the end of your 5 minutes, 
it will turn red. I ask that you try to adhere to the time 
limit and in my first Committee chairman not make me tap you 
out today.
    Our first witness--I am going to introduce the three and 
then I will allow the ranking member.
    Our first witness is Sonya McDonald. Ms. McDonald is an 
executive vice president and chief lending officer for Randolph 
Brooks Federal Credit Union in Universal City, Texas, which is 
located in southcentral Texas. She has been serving credit 
union members in various roles at Randolph Brooks Federal 
Credit Union for years, including numerous executive level and 
leadership positions. Along with being a recipient of the 
Presidential Volunteer Service Award, Ms. McDonald was named to 
the San Antonio's 40 Under 40 List and is a graduate of the 
University of Texas at Austin. She is testifying today on 
behalf of the National Association of Federally-Insured Credit 
Unions.
    Our next witness is Ms. Cindy Blankenship. Ms. Blankenship 
is the vice chairman of Bank of the West in Grapevine, Texas. 
Having opened Bank of the West in 1986 with her husband, Ms. 
Blankenship has been a leader in community banking for many 
years. Ms. Blankenship is a former chair of the Independent 
Community Bankers of America and has testified before numerous 
congressional committees. She has been recognized in the past 
as one of the 50 most powerful women in banking. Ms. 
Blankenship is testifying today on behalf of the Independent 
Community Bankers of America.
    Our next witness is Tony Wilkinson. Mr. Wilkinson is the 
president and chief executive officer of the National 
Association of Government Guaranteed Lenders. For over 25 
years, Mr. Wilkinson has been at the helm of the Association 
which represents the 7(a) lending industry. Before coming to 
NAGGL, Mr. Wilkinson was an executive at Stillwater National 
Bank. He has served as a member of the SBA's National Advisory 
Council and as a member of SBA's Investment Advisory Council. 
He has also been a recipient of SBA's National Financial 
Services Advocate of the Year Award.
    And I now yield to our ranking member.
    Ms. ADAMS. Thank you, Mr. Chair.
    I am so pleased to introduce Ted Ashby, a native of Mount 
Airy, North Carolina. I represent North Carolina, and we are 
happy to have a Tarheel in the place today. Mr. Ashby has a 
bachelor's degree in business administration and economics. He 
has held numerous positions in the banking industry, including 
branch administrator, chief lending officer, special assets 
manager, and senior vice president. In 1996, Mr. Ashby created 
Surrey Bank and Trust. As president and CEO, he has grown the 
bank to $278 million in assets, with six branches and a loan 
production office. He is testifying today on behalf of the 
American Bankers Association. Welcome, Mr. Ashby.
    Chairman KELLY. And again, thank you to the distinguished 
panel.
    And Ms. McDonald, you are recognized for 5 minutes, and you 
may begin.

  STATEMENTS OF SONYA MCDONALD, EXECUTIVE VICE PRESIDENT AND 
 CHIEF LENDING OFFICER, RANDOLPH BROOKS FEDERAL CREDIT UNION; 
   CINDY BLANKENSHIP, VICE CHAIRMAN, BANK OF THE WEST; TONY 
     WILKINSON, PRESIDENT AND CEO, NATIONAL ASSOCIATION OF 
GOVERNMENT GUARANTEED LENDERS; EDWARD C. ASHBY, III, PRESIDENT 
                 AND CEO, SURREY BANK AND TRUST

                  STATEMENT OF SONYA MCDONALD

    Ms. MCDONALD. Chairman Kelly, Ranking Member Adams, and 
members of the Subcommittee. Thank you for the invitation to 
appear before you this morning.
    My name is Sonya McDonald, and I am testifying today on 
behalf of NAFCU. I am the executive vice president and chief 
lending officer at Randolph Brooks Federal Credit Union. In 
this role, I am responsible for a $6 billion portfolio that 
encompasses consumer, mortgage, and commercial lending. I 
appreciate the opportunity to share with you my experience with 
the Small Business Administration's 7(a) Loan Program.
    RBFCU became a SBA preferred and express lender in 
September of 2005. We are delegated with SBA authority and are 
able to offer all of their products. In 2016, we were the 
number one SBA lending credit union in our 55 county district. 
SBA products allow us to leverage our lending dollars, mitigate 
the risk associated with the loans, and extend more credit to 
our community small businesses. Our current portfolio has 232 
active SBA loans with a balance of approximately $22 million.
    There are many stories of small business owners looking for 
that loan that will allow them to either start or grow their 
business. While other institutions may have scaled back their 
small-dollar business lending, credit unions have been willing 
to fill that void. At RBFCU, we are pleased that we have been 
able to step up to help meet the demand. SBA 7(a) loans make it 
easier for credit unions because the government-guaranteed 
portion of these loans does not count towards the arbitrary 
credit union member business lending cap.
    In San Antonio, we have a great bagel shop, the Bagel 
Factory, owned by an Air Force veteran and his wife. They went 
to 20 different places and were denied before coming to 
Randolph Brooks for an SBA loan. That business is now in its 
seventh year and thriving.
    Another example is a loan we did for a 100 percent disabled 
military veteran. With the help of a SBA express line of 
credit, he was able to secure 8(a) certification, and he can 
now fulfill software development contracts for the military.
    Two years ago, NAFCU signed a memo of understanding with 
SBA to help address the challenge of getting more credit unions 
involved in the SBA. The MOU formalized a joint partnership 
that aims to increase the availability of small-dollar loans by 
providing more outlets for entrepreneurs to access SBA products 
in their neighborhoods, and it makes the small-dollar loans 
more accessible to underserved communities, including women and 
minorities.
    We appreciate the work SBA has done and have some ideas on 
how to make the program stronger. One area where the SBA can 
help credit unions is to provide clarity. Sometimes when we 
email the SBA directly with a specific question about standard 
operating procedures, the response is nothing more than a 
screenshot of the website. We have also seen an example of a 
loan submitted through general processing where the SBA 
processor did not follow the SOP. It was a loan that required 
us to place a second lien on a borrower's rental property. 
Normally, we would use the tax assessed value on the home, but 
in this case, the processor insisted we use the value estimated 
by Zillow.com, which was not anywhere in the procedure manual.
    If SBA would publish a best practices and clarify guidance, 
it would go a long way to helping credit unions when they are 
making SBA loans.
    At RBFCU, we would also like to see the length of time it 
takes to approve a loan shortened. Right now it can take 8 
weeks or longer.
    For RBFCU and other credit unions, it would also be 
beneficial if the new SBA One software better integrated with 
the lending software used by the majority of lenders, something 
the old software used to do.
    In conclusion, small businesses are the driving force of 
our economy and the key to its success. The ability for them to 
have access to capital is vital for job creation. While SBA's 
7(a) program provides opportunities to established and 
struggling businesses, there are several relatively simple 
steps that could propel the program to its full potential, some 
of which the SBA can take without legislation. We urge Congress 
to do what is necessary to ensure these programs are 
successful.
    We thank you for your time and the opportunity to testify 
before you today on this important issue. I welcome any 
comments or questions you might have.
    Chairman KELLY. Ms. Blankenship, you are now recognized for 
5 minutes.

                 STATEMENT OF CINDY BLANKENSHIP

    Ms. BLANKENSHIP. Chairman Kelly, Ranking Member Adams, and 
members of the Subcommittee, I am Cynthia Blankenship, vice 
chairman, CFO, and corporate president of Bank of the West in 
Grapevine, Texas, an over $450 million community with 105 
employees and serving the Dallas-Fort Worth suburban area. I am 
also a former chairman of the Independent Community Bankers of 
America, and I am pleased to testify today on behalf of more 
than 5,800 community banks represented by ICBA.
    A robust 7(a) program with broad community bank 
participation will help small business thrive and create jobs. 
We are grateful for this Committee's strong support of the 7(a) 
program. Bank of the West is a 30-year partner with the Small 
Business Administration and a leading SBA lender in the Fort 
Worth District. We currently hold and service nearly $100 
million in high-quality SBA loans with a minimum loss ratio. 
Historically, Bank of the West 7(a) loans have created 
thousands of jobs in the communities we serve and help sustain 
and strengthen our local economy.
    Bank of the West uses the 7(a) Loan Program to supplement 
our lending and credit services by reaching a broader range of 
borrowers who would not qualify for a conventional loan. To 
safeguard the program from abuse, the SBA's Credit Elsewhere 
Test requires us to fully substantiate and document the reasons 
a given applicant cannot be served with conventional credit. 
The typical conventional small business loan has a maturity of 
1 to 3 years because it is funded with short-term deposits. 
However, 7(a) program loans have average maturities of 16 years 
or more. The program even allows for loan terms up to 25 years. 
These longer terms lower the entrepreneur's loan payments and 
free up needed cash flow to hire, invest, and grow the 
business. When another recession occurs, the longer loan term 
may help many small businesses weather the crisis.
    Bank of the West has been a preferred SBA lender for 30 
years. This program is available to lenders with a proven track 
record, a successful SBA lending whose lending policies and 
procedures have been thoroughly vetted by the SBA. Once 
approved, a preferred lender can use streamlined procedures for 
processing SBA loans and make final credit decisions in-house. 
This is a critical advantage because it allows us to avoid a 
delay of up to 3 weeks at the SBA approval offices.
    As an SBA preferred lender, we can be responsive to our 
credit applicants, and if they qualify, provide the funds in a 
timely fashion.
    Stable funding is critical to the success of the 7(a) 
program and the thousands of borrowers who rely on it. While 
the program is fully funded by user fees, an authorization 
level must be approved by Congress each year, and once that 
level is reached, no more loans can be approved.
    The program authority came to an abrupt halt in the summer 
of 2015 when it reached its authorization cap well before the 
end of the fiscal year. Congress was forced to pass an 
emergency increase to the authorization cap to restart the 
program. ICBA greatly appreciates the support and 
responsiveness of this Committee in passing that emergency 
increase. Thankfully, a hiatus was short lived. A longer 
program shutdown would have cut off the thousands of small 
businesses that rely on the program for payroll, investment, 
and expansion. We must work together to ensure that the program 
funding is never disrupted again. One way we might better 
achieve this funding stability is by creating a 2-year funding 
commitment and have it be renewed every year.
    I have focused my remarks today on the 7(a) program. 
However, taking a broader perspective, I urge this Committee to 
support regulatory and tax relief that would strengthen 
community banks and enable more small business lending in SBA 
programs and in conventional markets.
    ICBA's plan for prosperity is a robust set of legislative 
recommendations, many of which serve the same goal as the SBA, 
creating more small business credit that will in turn create 
economic growth and jobs. A copy of the plan is attached to my 
statement, and I would encourage you to read it and discuss it 
with the community bankers in your districts.
    Thank you again for convening this hearing. I am happy to 
answer any questions you may have.
    Chairman KELLY. Thank you, Ms. Blankenship. It is always 
nice to hear somebody who does not have an accent.
    Mr. Wilkinson, you are now recognized for 5 minutes.

                  STATEMENT OF TONY WILKINSON

    Mr. WILKINSON. Good morning, Mr. Chairman, Ranking Member 
Adams, and other members of the Committee. I am Tony Wilkinson. 
I am the president and CEO of the National Association of 
Government Guaranteed Lenders. I am happy to be here today to 
talk about the very successful SBA 7(a) program. It is a 
public-private partnership that works as there are almost 2,000 
financial institutions who participate in the program, reaching 
about 65,000 small businesses annually. These lenders make 
private sector loans to small businesses who are credit worthy 
but fall into the well-known lending gap that small businesses 
face.
    Through the 7(a) program, lenders are able to meet the 
long-term financing needs of their small business customers. 
That means we can appropriately finance a long-term asset with 
a long-term loan. The significant majority of conventional 
loans, as Ms. Blankenship mentioned, have original maturities 
of 3 years or less, and the bulk of those loans actually have 
maturities of 1 year or less. So banks are really good at doing 
short-term financing, but with the SBA product we are able to 
do long-term financing. Again, financing those long-term assets 
with a long-term loan.
    And as Ms. Blankenship said, our original maturities in an 
SBA 7(a) program are 16 years. And so those longer maturities 
mean lower payments for those small business borrowers. And 
when small business can get the financing that they need, they 
can expand and grow and create jobs. It has been estimated that 
well over 500,000 jobs are created or retained annually thanks 
to the 7(a) program.
    Over the last several years, use of the program has grown 
dramatically. Loan volume in fiscal year 2016 was over 25 
percent greater than it was just in fiscal year 2014, meaning 
more and more small businesses are being served. But it also 
means we have been operating at or near our congressionally 
authorized annual authorization cap. This fiscal year, under 
the current continuing resolution, the 7(a) program has a $26.5 
billion authorization cap. Based on current loan volumes and 
projected growth, we anticipate lending about $26 billion net 
this year. So again, we are going to be getting very close to 
our annual cap.
    I want to make sure that we understand that that is a net 
number. Our gross lending will probably exceed the cap 
somewhat. And as loans for whatever reason do not get closed, 
they get canceled, and so we get down to a net number, but it 
is very likely that our gross lending will exceed our cap, but 
it is the net lending number that is important.
    As funding measures are considered with the April 28th 
expiration of the continuing resolution, a modest bump up in 
our authorization cap would be appreciated just to make sure 
that we have sufficient funds to get through this year as 
predicting future loan volumes, as you might imagine, is a very 
difficult task. Please keep in mind that the 7(a) program 
operates at a zero credit subsidy, meaning no appropriations 
are needed. The estimated costs of the program are paid for by 
the fees charged to lenders and borrowers. So let me repeat. No 
Federal appropriations are needed to fund credit subsidies for 
this program.
    It is a long-held belief in our association for this 
program to pass the test of time to be here for small 
businesses for many years to come, it has to be a program of 
integrity. The program must be used the right way. That is what 
we teach in our training programs. It is what we expect from 
our members. It is why we understand that it is in the 
program's best interest to have SBA engaged in a sustained, 
efficient, and cost-effective oversight program to maintain 
that integrity. NAGGL has worked, and will continue to work, 
with the SBA and this Committee and SBA's Office of Credit Risk 
Management to ensure that integrity.
    With that, I will close my remarks and be happy to answer 
any questions.
    Chairman KELLY. Thank you. And Mr. Ashby, you are now 
recognized for 5 minutes.

                STATEMENT OF EDWARD C. ASHBY III

    Mr. ASHBY. Chairman Kelly, Ranking Member Adams, and 
members of the Subcommittee, I am Ted Ashby, president and CEO 
of Surrey Bank and Trust, headquartered in Mount Airy, North 
Carolina. I appreciate the opportunity to present the views of 
the ABA on the importance of the SBA Advantage Loan Program, 
widely known as the SBA 7(a) program for community banks like 
mine.
    Our bank was chartered in 1996 with a focus on business 
lending. We are intentionally focused on building and 
maintaining long-term relationships with our customers. The 
success of Surrey Bank is linked to the success of our 
community. They are all our neighbors.
    Community banks like mine actively pursue small business 
loans, which is critical to the economic growth and job 
creation in our area. The SBA program supports this with the 
help to fill a critical gap particularly for early stage 
businesses that need access to longer term loans. The guarantee 
helps reduce the risk and capital required for banks and 
facilitates loans that may never have been made without this 
important level of support from the SBA.
    In 1999, Surrey Bank began using SBA to help local 
companies meet their credit needs. This is an integral part of 
our business model. We have 174 active loans with an average 
loan size of $200,000, which demonstrates that the 7(a) program 
is very important to us and to our community. In total, 19 
percent of our business loans are insured by the SBA, and 13 
percent of all our loans are insured by the SBA. Our active 
involvement in SBA has earned Surrey Bank the ``Community Bank 
of the Year'' award in North Carolina 12 of the past 14 years.
    Let me give you a couple of examples to show the importance 
of SBA to our community. We extended credit to a precast 
concrete company that opened its doors in 2007, a terrible time 
to open. With the recession, economic activity was weak and the 
borrower had difficulty generating enough working capital to 
fund new orders. Our bank used the SBA's Cap Lines Contract 
Loan Program to fund these individual orders until they could 
be completed and the business paid. This company now generates 
sufficient cash flow to fund its operations without the SBA or 
bank assistance.
    My second example, we extended credit to a woman-owned 
company that is engaged in traffic and safety control and 
highway and bridge construction. This company started in 2004 
with four employees and just two trucks. Since inception, we 
granted 23 SBA loans to this company to help fund their 
expansion. Today, the company has over $12 million in revenue, 
90 employees, and a fleet of over 100 vehicles and assorted 
other equipment. Quite a success story.
    But our success is replicated over and over across 
communities in America in the banking system. This is why the 
ABA supports the Small Business Committee's efforts to build on 
the positive aspects of the program and consider improvements 
that would benefit the business climate in our communities.
    I have noted in my written statement many positive features 
of the 7(a) program. The central focus of these features is 
that they reduce the cost of the transaction, lower general 
collateral requirements, provide faster response times, improve 
cash flow, and reduce the amount of working capital needed to 
operate the business. All of these facilitate loans that may 
have never been possible under conventional financing where 
under conventional financing you would require an abundance of 
collateral. You have a guarantor that has a strong secondary 
source of repayment, and you would most likely have shorter 
loan amortizations.
    However, improvements can be made to any program. 
Primarily, this is involved in the servicing aspects. These 
include consolidating loans, allowing portfolio lenders to 
obtain a guarantee to avoid regulations on loans to one 
borrower limitations, facilitating and offering compromise in 
cases where they may be in liquidation through multiple 
programs, and making the SBA One platform fully operational to 
reduce our paperwork.
    In conclusion, the SBA's 7(a) program is a success and 
should be supported in the future. It has encouraged economic 
growth and allowed Surrey Bank to meet the credit needs of many 
small and diverse businesses in our small portion of the state 
of North Carolina.
    ABA strongly believes that our communities cannot reach 
their full potential without the presence of a local bank. Last 
year 251 banks disappeared. Since Dodd-Frank was enacted, 
nearly 2,000 banks have merged or closed their doors. If the 
pressures on our small banks are not relieved, the loss will be 
felt far beyond the bank and its loss of employees for that 
bank. It will mean something significant has been lost in that 
community that was once served by the bank. That is why it is 
imperative that Congress take steps to enhance the banking 
industry's capacity to serve their customers and facilitate job 
creation and economic growth.
    Thank you. I will be happy to answer any questions.
    Chairman KELLY. I want to once again just thank the 
distinguished members of the panel. Thank you so much for what 
you bring.
    I think one of the main things that is important to me, and 
I recognize myself for 5 minutes, so I will hold myself to the 
same thing, but one of the most important things is this 7(a) 
Loan Program costs us, or costs the taxpayers nothing. So I 
think that is very important. So it is a great program because 
there is no cost associated with while creating small 
businesses or helping them to create small businesses it does 
not cost.
    And this first question is for the entire panel, but I will 
start with--I will let Ms. Blankenship answer first and then we 
can go along the list. From the lender's perspective, can you 
describe the Credit Elsewhere Test and the steps you take to 
verify whether a small business can obtain capital from another 
source?
    Ms. BLANKENSHIP. We look at the Credit Elsewhere Test and 
go through the parameters that SBA has lined out. And 
basically, that is how we qualify that small business as an 
alternative source of funding through the SBA. Many times those 
small businesses are not a good candidate for conventional 
financing because they do not have the collateral value or they 
are depending on future cash flows, projected cash flows. We 
personally do a lot of startups, as well as acquisitions for 
small businesses, as well as some franchise. And a lot of times 
there is not a historical record there. And personally, I was 
able to give my hair stylist Kim a loan to acquire a salon when 
the owner died. She was a young lady. She had good credit, but 
did not have a lot of collateral. So we were able to help her 
acquire that salon. She hired eight additional stylists, paid 
her SBA loan off early, and that is just one story where the 
Credit Elsewhere Test is a good tool, and we do use it so we 
can slot that customer in the right type of either conventional 
or SBA loans.
    Chairman KELLY. Yeah, and I guess for the public, the few 
people who are watching this hearing, is the credit elsewhere 
means you are not competing with other sources. If they can get 
credit in another place, then they have to do that. They cannot 
use this program. They have to only use this if it is the only 
resource that they can use to get there. Is that correct?
    Ms. BLANKENSHIP. That is correct.
    Chairman KELLY. Okay. Do one of you other three, does 
anybody want to take a stab before I ask the next question?
    Ms. MCDONALD. From my perspective, we are no different than 
our friends in the banking industry. We look at the loan and we 
see, first of all, can we do it in a conventional manner? And 
if we cannot--and it is usually because they do not have the 
down payment, they need a longer term, et cetera--but from a 
credit union's perspective, we follow the same rules as our 
friends in the banking industry.
    Chairman KELLY. And Mr. Ashby, I think you had a comment?
    Mr. ASHBY. We do not specifically look at the Credit 
Elsewhere Test. When we underwrite a loan, we are looking at 
the collateral coverage cash flow and secondary source of 
repayment. And a lot of the conventional financing is 
homogenized because regulators like to know what our loan 
policies are. And all our loan policies are generally the same 
as you go from bank to bank. So you can identify really very 
quickly which loans need this kind of support and help from the 
SBA on extended terms.
    Chairman KELLY. Thank you very much.
    Mr. Wilkinson, in your testimony, you described the PARRIS, 
P-A-R-R-I-S, review system as a tool in SBA's oversight tool 
box. What other tools does SBA and the Office of Credit Risk 
Management utilize to conduct lender oversight?
    Mr. WILKINSON. Sorry about that. A relatively new system 
that they put in place over the last 4 or 5 years, but it is an 
analytically driven program that they used to target what 
reviews are going to happen amongst their lenders. And that is 
where then they can choose what kind of reviews which lenders 
are going to get. And it appears to be working quite well. The 
one issue that we would be concerned about is making sure that 
the Office of Credit Risk Management has sufficient resources 
to do its job. With the growth we have had in the program, we 
need to make sure that their resources have increased 
commensurately so that they have the appropriate staff to 
continue to do the job that they need to do.
    Chairman KELLY. And I yield back myself the time that I 
have not used. And I now recognize our ranking member from 
North Carolina, Ms. Adams, for 5 minutes.
    Ms. ADAMS. Thank you, Mr. Chair. And thank you all for your 
testimony.
    Mr. Ashby, in your written testimony you mention positive 
aspects of the 7(a) program and other SBA programs, including 
SCORE. Do you have any success stories or specific examples of 
how SCORE counseling has benefitted small business clients? And 
what improvements can be made there?
    Mr. ASHBY. Comments were primarily related to feedback that 
we have gotten from customers that have gone through that 
process, and they think it is very valuable to have someone 
that has basically fought the fight and learned how to navigate 
through their business careers and how to help these people 
overcome some of the obstacles that happen in their business 
because we go through cycles, and some of these retired people 
have seen many business cycles. And so my experience is that we 
get great feedback. We are not present during those counseling 
sessions, but we do get feedback that it is most important to 
them to have a mentor.
    Ms. ADAMS. Okay. Let me ask you. You know, I had a 
listening session last week, some people would refer to it as a 
townhall, up in the upper part of my district in Huntersville, 
and we had a lot of veterans to come in to talk to us. Do you 
deal much with veterans? Have they been interested in the 
program through your bank?
    Mr. ASHBY. We have had--I think we probably made three or 
four loans to veterans last year. There is a special carve-out 
for veterans on fees for loans amount of a certain dollar 
amount. So we do have interest from veterans.
    Ms. ADAMS. Okay. You also note that the SBA One program 
platform is not fully operational. What enhancements should be 
made to the system?
    Mr. ASHBY. Well, right now, basically, we can only get the 
issuance of the guarantee, and I think it was originally 
designed that you can go soup to nuts. You can do the initial 
qualification and then you can print all the closing documents 
all on one platform. And so I guess the second half of that 
platform is not fully complete at this time.
    Ms. ADAMS. Okay. To what extent, I mean, as a follow-up, 
has the SBA sought feedback from lenders to improve the system?
    Mr. ASHBY. We get constant feedback from our district 
director, Lynn Douthett. And so we are being called on all the 
time to talk about what types of loans we are seeing. If we 
need any training, they oftentimes request Surrey Bank train 
some of the new people that are coming into the SBA lending 
arena because we have been at it a long time and we are a small 
bank. And we try to help them get the proper resources in-house 
in order not to run in trouble with the SOP and have problems 
going forward, so----
    Ms. ADAMS. Okay. Thank you.
    Mr. ASHBY.--we have a good relationship.
    Ms. ADAMS. Great. Thank you.
    Mr. Wilkinson, for a small business to participate in the 
7(a) program it must not be able to obtain conventional 
lending. How does a lender determine if a borrower cannot get 
credit elsewhere?
    Mr. WILKINSON. Okay. The Credit Elsewhere Test is that the 
borrower cannot find financing under reasonable terms and 
conditions. So a lender will take a look at each small business 
borrower and determine whether it fits into their own 
conventional credit policies. For instance, many of our credit 
policies say we do not lend to new business startups. In the 
SBA program, year-to-date, we are about 36 percent new business 
startups. So that is sort of one of the automatics that fit. As 
has been mentioned, sometimes it is collateral coverage. 
Sometimes it is cash flow coverage. There are some statistical 
numbers that lenders look at, and perhaps if those numbers do 
not reach a benchmark that is sufficient for conventional 
financing, then they would be candidates for the SBA program.
    Ms. ADAMS. Okay. Given that it is the lender's best 
interest to make the determination that the borrower cannot 
obtain credit elsewhere so that they can make the loan, add to 
its assets or make money off of the loan, to what extent does a 
potential conflict of interest exist there?
    Mr. WILKINSON. I guess the first thing is banks are in the 
business of lending money, and with every loan that they make 
they hope to generate a profit from those. I think what you are 
referring to is the ability to sell loans into a secondary 
market where the banks can recoup the funds that they have lent 
plus generate a profit on those. Those loans that are sold are 
typically sold by lenders who have liquidity issues. Lenders 
who do not have liquidity issues typically hold their loans. 
That is why only about 40 percent of the loans in the 7(a) 
market are sold into the secondary market. Most of the loans, a 
majority of the loans are actually held and not sold.
    Ms. ADAMS. Okay. All right. I am out of time. Mr. Chair, I 
yield back. Thank you.
    Chairman KELLY. I thank the ranking member.
    I do want to recognize both our chairman, Chairman Chabot, 
from the great State of Ohio, and our Ranking Member Velazquez 
from New York. And I thank both of them for honoring me by 
being here today.
    And now I recognize the gentleman from Kansas, Dr. 
Marshall.
    Mr. MARSHALL. Mr. Chairman, I am so excited to be here. It 
is a breath of fresh air to talk about a government-private 
partnership that is working. I am just here to celebrate. I 
needed a breath of fresh air.
    Thank you so much for the people that have made the effort. 
We need to keep accentuating the positive, and I appreciate 
some of you brought solutions. Ms. Blankenship talked about a 
2-year funding commitment. What a novel idea to give you all 
certainty. I hope that the chairman and our staff take notes of 
these possible solutions. And Ms. McDonald, you talked about 
best practices. Give me the best practices and we will do it. 
What a novel idea. Timeliness. These people that need the 
money, they need to get in the game now because 6 months from 
now may be too late for this business opportunity.
    You talked about software. Good luck with that. I have been 
fighting that one wherever I go.
    I do not know about you all, but my community woke up 
November the 9th, and it was a breath of fresh air. My 
entrepreneurs have been drowning in regulation, and all of a 
sudden they started popping up, coming out of nowhere.
    And Ms. Blankenship, have you seen an increased number of 
entrepreneurs out there since November the 9th? What is going 
on in the business world in Grapevine, Texas?
    Ms. BLANKENSHIP. Well, I am proud to say we have seen an 
uptick and a demand for entrepreneurs. And really, I think, 
personally what I have seen coming through our loan committee, 
whether it be SBA or conventional lending, is there is just a 
renewed energy out there. During the crisis years, we saw a lot 
of our small businesses really pull back on expansion and 
investment and resources into their business because they did 
not know what the economy was going to do. And I think there is 
a new confidence. We are seeing people that would not have 
taken a gamble on starting a new business or just trying to 
acquire another business. We have seen quite an increase in 
that. And I think that accounts for the increase in the 
program. The program has been critical to us for 30 years. Some 
banks, you know, we see players come in and out of the market 
but we have been in it for 30 years. And I think the reason it 
works for us and some of the other people that stay in it is 
because you have to make a commitment and have your own 
resources in-house and just use the program as it was intended. 
And it is hugely successful.
    Mr. MARSHALL. Well, thanks. And we do understand 
commitments to your community to do these types of projects.
    Ms. McDonald, talk about agribusiness. I am just curious. 
Do you see much SBA loans like this for agribusiness, 
agriculture? Is that a big part of your market or not so much?
    Ms. MCDONALD. It is not a big part of our market.
    Mr. MARSHALL. That is too bad.
    Mr. Ashby, I am not sure how rural you are. Do you see much 
agri-economics going on with yours?
    Mr. ASHBY. We have seen a lot of activity in the poultry 
industry and we have participated, I think, probably maybe, I 
think, two or three loans last year. There is competition in 
that field with FSA.
    Mr. MARSHALL. Okay.
    Mr. ASHBY. USDA makes those loans, also. But that was a 
large growth industry in North Carolina last year.
    Mr. MARSHALL. Ms. McDonald, let me come back to you. You 
talked about your bagel loan, and that is just a great, great 
story. Walk me through this business model just a little bit. 
And I am sure you are not supposed to give me too many 
specifics. Mr. Ashby talked about a $200,000 average loan, but 
a business like the bagel industry, that is not a $400,000--I 
mean, are these $40,000 and $60,000, $80,000, 90,000 loans? 
Give me just kind of a feel for what your more typical loan 
looks like.
    Ms. MCDONALD. At Randolph Brooks, our average SBA loan is 
$90,000. So these are not high-dollar loans.
    Mr. MARSHALL. Yeah. Let's kind of walk through the terms 
and differences between this and a more bank-traditional loan. 
I mean, I had some experience going through these. You know, 
first of all, the differences are does the SBA still guarantee 
85 percent of the loan? Or about how much does it do now?
    Ms. MCDONALD. It depends on the amount. So if it is less 
than $150,000, then it is 85 percent; if it is more than 
$150,000, it is 75.
    Mr. MARSHALL. Okay. And, you know, typically, you would 
walk into a bank. These are kind of high-risk loans. If they 
are a well-qualified person, a bank might be asking 20, 30 
percent down. How much down are these type of loans going to--
how much capital?
    Ms. MCDONALD. So at Randolph Brooks, our conventional loans 
are 20 percent down. With the SBA guarantee, it can be 10 
percent down. And because we can extend the term, it makes the 
payment much more palatable.
    Mr. MARSHALL. Exactly. So you addressed the term. What 
about interest rates? You know, as best as applies and apples, 
is it about the same as a conventional loan? Is it more? Is it 
less?
    Ms. MCDONALD. I mean, it is a little bit more. You are 
taking on the risk.
    Mr. MARSHALL. Meaning a little bit more, like half a point, 
50 basis points, or what?
    Ms. MCDONALD. I could not answer that.
    Mr. WILKINSON. The interest rates are statutorily set. 
There is a maximum rate of prime plus 2-3/4. The average 
interest rate today is running at prime plus 2.
    Mr. MARSHALL. Thanks. That solved it. Thank you.
    Chairman KELLY. The gentleman's time is expired.
    I now recognize the ranking member from New York, Ms. 
Velazquez.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman.
    Ms. Blankenship, thank you for being here today, and it is 
really nice to see you again.
    I understand that SBA has been slow to fulfill their 
mandate to maximize the effectiveness of SBA LINC and SBA One. 
It is critical that SBA is using the best technological 
solutions to do so. How important is it to community banks and 
other SBA lenders that SBA continues to streamline their 
processes using technology to maximize the usefulness of SBA 
LINC and SBA One?
    Ms. BLANKENSHIP. Well, I think especially of our community 
bank, timeliness is everything. So any advances and 
streamlining procedures that the SBA can finish up this SBA One 
and the LINC--it is not fully operational right now. We are 
using a third-party software and we are basically running those 
parallel. And we do get continued and regular communication 
from SBA encouraging us to use SBA One. And in talking to our 
lenders on the SBA side, they are very encouraged by the final 
product should it become fully functional. But right now it is 
not fully functional, but it looks like it will greatly 
increase our efficiencies. It will increase our turn times, and 
I think someone mentioned that funding is critical many times, 
especially in a small business startup or acquisition.
    Ms. VELAZQUEZ. Funding is critical, and in terms of funding 
for SBA?
    Ms. BLANKENSHIP. Well, the funding for SBA is critical, but 
our ability to fund----
    Ms. VELAZQUEZ. Sure.
    Ms. BLANKENSHIP.--in a timely manner is very critical as 
well.
    Ms. VELAZQUEZ. Yes, I agree.
    Mr. Wilkinson, we have heard from many lenders about SBA's 
SOPs under lender guidelines. What is your view of those SOPs, 
and can they be improved?
    Mr. WILKINSON. Well, just as a point of clarification, 
there are regulations that SBA has issued over the years, and 
they are fairly short. And then in addition to those 
regulations they have put out what they call Standard Operation 
Procedure Manuals, and those are not so short. They are pretty 
thick. And those are the ones that we have to pay very, very 
close attention to. Sometimes those SOPs get changed rather 
quickly, and sometimes without notice. We see it from emails 
coming in from some of our members. But for the most part, SBA 
does try to work with us and find ways to streamline the 
program.
    If we go back to just fiscal year 2012, this was a $15 
billion program. I tip my hat to the last couple or three folks 
that have been in charge of the Office of Capital Access at 
SBA. They were all former bankers. They understood our issues 
when we brought them to them, and really worked to try to 
streamline it.
    So from a $15 billion program in 2012--and we have a 
request out for next year to make it a $30 billion program. So 
while the SOPs can be somewhat onerous and we pull our hair out 
sometimes in trying to figure out what some of the changes are, 
the fact is that things have gotten a lot better and we are 
looking at an industry that has doubled since 2012.
    Ms. VELAZQUEZ. Glad to hear that.
    Mr. Wilkinson, I know that several members today have 
raised the Credit Elsewhere Test, but I want to ask you about 
whether or not you believe that there are instances where some 
lenders are not adhering to this test.
    Mr. WILKINSON. Could there be some lenders who are 
originating loans that could be done conventionally? I could 
not say unequivocally the answer is no. I mean, there is most 
likely somebody who has made a loan today where a borrower 
could get a conventional product. But that is where the role of 
lender oversight at SBA comes into play.
    As Ms. Blankenship described, every loan file has to 
explain why they cannot make that loan on a conventional basis, 
and they have to cover the things that cause that reason, be it 
lack of collateral or lack of cash flow that meets their 
conventional standards. Perhaps it is because the borrower 
needs the 25-year maturity rather than the much shorter 
maturity that banks like to do on conventional financing. That 
documentation needs to be in the file. And if it is not there 
and that lender goes to ask for the guarantee to be honored, 
chances are the answer is going to be no to the guarantee 
request.
    Ms. VELAZQUEZ. Okay. Thank you, Mr. Chairman. I yield back.
    Chairman KELLY. I thank the gentlelady.
    I now recognize the great gentleman from Nebraska, Mr. 
Bacon.
    Mr. BACON. Thank you for being here. I appreciate your time 
and traveling here. I am grateful to you.
    Most of my questions were already asked. I just want to 
express my concern with your comments, Mr. Ashby, about the 
banks that are closing, our community banks and the 
consolidations, a lot of it a result of Dodd-Frank. I think 
that is an underreported story, and we here should be concerned 
about it in Congress. I mean, for small communities, it is a 
bad trend and I think we have got to fix that. So I would have 
a commitment to help you out with that.
    On that note with Dodd-Frank, when I talk to our folks in 
the Second District of Nebraska, I hear from the banks it is 
very hard to give small loans anymore separate from the SBA 
because of the Dodd-Frank regulations. I think that forces a 
lot of our small businesses to go to the SBA, which is a 
government program and policy causing a problem and then using 
another government solution to help fix it. Is this a correct 
observation? Do I have that right? For anybody who would like 
to answer.
    Mr. WILKINSON. Our program has grown dramatically over the 
last few years and I do not know that we could singularly say 
that it was because of Dodd-Frank. I think there are a lot of 
things. The economy is improving. There are more entrepreneurs 
looking to borrow today. Our loan volume, our growth is up 
year-to-date about 7 to 8 percent over last year. Are there 
provisions of Dodd-Frank that are pushing lenders to shrink 
their conventional credit box and expand their SBA box? I would 
say the answer is probably yes. To what extent I could not 
quantify that.
    Mr. BACON. Okay.
    Mr. ASHBY. At Surrey Bank, we do not think there is as 
large a business opportunity in lending to individuals for 
personal needs as there are in small business lending because 
these regulations are very complex and the risk of running 
afoul of those regulations is significant.
    Mr. BACON. One more question. I think each of you touch on 
it just a little bit, but I would love to have clarity 
together. If you could say or tell us one thing you would like 
us to help improve with the SBA and the 7(a) process what would 
it be?
    Ms. BLANKENSHIP. I would like to see us be able to 
refinance an existing SBA loan on our books. We probably lose 
three to four loans a year because the rules will not allow us 
to take out another SBA loan, and it becomes particularly 
cumbersome when it has been sold into the secondary market. But 
as a result, we end up losing not only the customer but the 
deposits, so the deposits go out of our community bank. That is 
deposit dollars that could have been leveraged into other loans 
and expansion into the community. And that is really a key 
obstacle for us right now. So we would like to see that 
refinance rule revisited.
    Mr. BACON. Thank you. Great input.
    Ms. McDonald?
    Ms. MCDONALD. As I mentioned earlier, it would be great to 
have any unwritten rules or best practices published so that we 
do not find out after the fact. It would save us a lot of time. 
It would save the SBA a lot of time.
    Mr. BACON. I think everybody would like that.
    Ms. MCDONALD. Yes.
    Mr. BACON. Any job they are in.
    Mr. Wilkinson?
    Mr. WILKINSON. Well, mine is more at a programmatic level. 
Over the last few years we have bumped into our authorization 
cap repeatedly, and we had proposed--last year it was included 
in--the budget request for the current year has been improved 
by OMB and actually was introduced in the Senate as potential 
language to give the administrator of the SBA the opportunity 
to increase our authorized cap with notice to the 
Appropriations Committees by a certain percentage, 10, 15 
percent. So, for instance, this year, she could raise it 
another $3 billion, or up to $3 billion with notification to 
the Appropriations Committee so long as the program is 
operating at a zero credit subsidy.
    So no appropriations are needed. It would give us that 
flexibility so we are not worrying about did we guess exactly 
right on the amount of loan volume we are going to see 18 
months down the road, because that is a hard task to do. And 
with that kind of flexibility in the authorization cap, it 
would make my life a lot easier.
    Mr. BACON. Thank you. And with about the 40 seconds 
remaining, Mr. Ashby?
    Mr. ASHBY. We are a portfolio lender. We are a small bank 
and so I am kind of a small bank advocate. But I think one of 
the things that changed this past year was the inability for 
banks to write an SBA loan if it would get over their loans to 
one borrower limitation. And in a lot of these small 
communities that may have $100 million in assets and say $8 
million in capital, that does not give you a very large loan 
limit that you can make to some of these customers in your 
market that may actually need that loan. So I think for 
portfolio lenders it would be great if there could be a carve-
out for certain sized banks.
    Mr. BACON. Okay. Thank you very much. I appreciate your 
recommendations, and I yield back.
    Chairman KELLY. If it is okay with the panel, I think we 
are going to do another round of questions. Ms. Adams and I 
have both agreed. Is that okay with you guys? And so I will 
recognize myself for 5 minutes.
    My first question is, and we kind of talked around this, 
but is the Credit Elsewhere Test, is it strong enough? And I 
would just like to hear your comments on that.
    Mr. Wilkinson, I guess we will start with you.
    Mr. WILKINSON. Well, I think it is. Clearly, it is raising 
a lot of questions here on the Hill as to whether it is or not. 
But I think from the lender's side we understand that we have 
to document in the file why that borrower cannot get 
conventional financing. And could we put some other language 
and statute to make that even more clear? That is a possibility 
and we would be happy to help draft some language with that, 
but it is pretty clear in our books. We treat what SBA means by 
credit elsewhere and the things that are detailed out in the 
SOP on how you document that.
    Chairman KELLY. So you feel like it is strong enough and it 
is clear enough that you understand it and it is the right test 
right now, is that correct?
    Mr. WILKINSON. I understand it, and I think our members 
understand it.
    Chairman KELLY. Ms. Blankenship?
    Ms. BLANKENSHIP. I think it works for us right now. If you 
look back at our historical volumes, they did not increase or 
decrease because of this test. And remember, when you are a 
small community bank, you have a fiduciary responsibility to 
your customer. I mean, we go to church and schools. Our kids go 
to school together. We cannot take advantage of our customer. 
So it is our job to put that customer in the right finance tool 
to get them their credit availability. Our reputation and 
integrity is riding on this as well.
    Chairman KELLY. Mr. Ashby, do you agree?
    Mr. ASHBY. I agree. When you look at our percentage of 
loans that we have with a SBA guarantee that are business-
related purposes, it is 19 percent. And so when you just look 
at the broad category of business opportunities in our area 
that is not as vibrant as others, that is a very believable 
percentage.
    Chairman KELLY. And Ms. McDonald?
    Ms. MCDONALD. I think everybody has said it really well. We 
have a fiduciary duty to do the right thing. Everybody here 
agrees with that. We have to be able to note in the loan file 
or document the reasons why we went with an SBA loan, if we 
were ever audited, we can confidently give the information.
    Chairman KELLY. Thank you. And I still start with you 
again, Ms. McDonald, since I left you the last, my second 
question is does the SBA have the correct tools in place to 
provide oversight?
    Ms. MCDONALD. I think so. We have a very good relationship 
with the SBA. We are constantly talking to them about ways to 
improve the process. I would say yes.
    Chairman KELLY. Mr. Ashby?
    Mr. ASHBY. Well, SBA has had explosive growth over the last 
few years. You know, I think they are doing a good job. Mr. 
Wilkinson spoke to the PARRIS SCORE. And I do not know if those 
are confidential reports sent out quarterly to the banks that 
are participating in the programs, but they cover a lot of 
important things: your performance, your asset management and 
regulatory compliance risk management, and any special items 
and risk factors that the SBA sees out there. So I think it is 
well done.
    Chairman KELLY. And either one of you two are welcome to 
comment.
    Ms. BLANKENSHIP. Well, just as a preferred lender, you 
know, we have to have integrity in our portfolio and meet 
certain standards and not go over loss ratios. So I think that 
the oversight is working for us now. With the growth in the 
program you may need to enhance the resources at SBA, but for 
players like us, I think we are not feeling lack of oversight.
    Mr. WILKINSON. I think it is a critical part of our 
business. We have a conference call every other week with the 
Office of Credit Risk Management to talk about issues that are 
out there. We stay very focused on oversight. Do they have 
enough tools and resources? We would like to see them. You 
know, they had approved prior to the hiring freeze six full-
time equivalents to come on to be the lead auditors. Right now 
they hire contractors to do those. Hopefully, when the hiring 
freeze is lifted, SBA can hire their own staff that is 
dedicated specifically for doing those reviews.
    We hear from our members that a lot of times they are 
training the consultants on what they ought to be examining 
that lender for, which does not seem to work well at all. So we 
are hopeful that they will be able to get that done.
    We know that the Office of Credit Risk Management is 
supposed to get a certain allocation of resources every year. 
We would like to make sure that the Office of Credit Risk 
Management is actually getting those resources to make sure 
that they do have the tools necessary to stay on top of our 
growth.
    Chairman KELLY. And I yield back. And now I recognize Ms. 
Adams.
    Ms. ADAMS. Thank you, Mr. Chairman.
    Ms. McDonald, credit unions are a vital part of our 
Nation's lending to small businesses and share the same 
mission, people helping people. How can Congress make it easier 
for credit unions to participate in SBA loans, SBA programs?
    Ms. MCDONALD. Well, I think we have to look at raising the 
member business cap. At Randolph Brooks, we are 6-1/2 percent 
loaned out, so we are not near the cap, but there are a lot of 
small credit unions out there who cannot get into SBA lending 
because as soon as they put in the resources and spend the 
money and spend the time, they get a couple of loans and then 
they would have to shut down their program.
    Ms. ADAMS. Okay. Encouraging more credit unions to 
participate in SBA programs is critical to serving many 
businesses in underserved markets. So what impact will 
increased credit union participation mean to small firms?
    Ms. MCDONALD. Well, it gives people the opportunity--it 
gives credit unions the opportunity to serve their members. I 
mean, that is why Randolph Brooks got into member business 
lending. Our members were asking for this type of loan. And so 
the more players that are out there able to offer these loans, 
the more you are going to have them in the communities that we 
serve.
    Ms. ADAMS. Let me ask. Do you all recruit members? You say 
your members are asking. I am just curious.
    Ms. MCDONALD. So we have membership, and we serve them for 
their personal loans, their auto loans, their mortgage loans, 
and some of those same members, because they trust us, have 
come to us and say, you know, we would like to have our 
business needs served by you.
    Ms. ADAMS. Okay. Do you do any special outreach or it is 
kind of word of mouth?
    Ms. MCDONALD. Not particularly for business loans. We do 
outreach for members in general and then they come to us for 
their business needs.
    Ms. ADAMS. Okay. Thank you.
    Ms. Blankenship, in your written testimony, you note the 
increase in authorization for the 7(a) program that was 
required in July 2015. Could you please elaborate on the 
importance of stable funding and the proposal for a 2-year 
funding commitment?
    Ms. BLANKENSHIP. Our loans go a loan committee and we 
approve those loans in, let's just say it is 30 or 60 days in 
advance of closing the SBA loan. So at any given time we have 
approved loans that have not closed. And as Mr. Wilkinson said, 
sometimes those loans fall out. For whatever reason, they end 
up not closing. But we have this listing of loans that our loan 
committee has approved and we have told the customer was 
approved, but then in order to get it fully funded, we have to 
get the authorization from SBA. And so you are always fighting. 
We are trying to project, too, into the future, how much 
funding will be available based on the total market demand. And 
it is continually and annually a challenge that is I think 
particularly a challenge for smaller community banks and other 
SBA participant lenders. And if we could go to a 2-year 
funding, that would give us--the regulators like to see us plan 
and do our risk assessments annually, and it would just help us 
with our funds management, our liquidity, and our funding 
needs.
    Ms. ADAMS. Okay. Thank you very much.
    Mr. Wilkinson, what efforts have the National Association 
of Government Guaranteed Lenders made to expand the universe of 
small business lending to traditionally underserved markets?
    Mr. WILKINSON. Thank you for that question. We have been 
working diligently with the SBA on what we call our smart 
business toolkit. It is a program that we put together to help 
small businesses understand how to get credit ready, and we 
have paid for the underwriting of that course and have given it 
to SBA. We have had it translated into Spanish. We have been 
working with the Urban League to get that program out into 
their membership as well. We have had veteran outreach 
programs. We take lending to underserved markets very seriously 
and I think it is showing in that the numbers across the board 
are up in many of the underserved areas.
    Ms. ADAMS. Okay, great. Thank you very much, Mr. Chair. I 
yield back. My time is up.
    Chairman KELLY. I thank the ranking member and gentlelady 
lady from North Carolina again. Thank you for today.
    Thank you, witnesses, for being here today and sharing your 
thoughts and views. I believe it is important to hear directly 
from lenders participating in the program. Your role is 
extremely important to our hardworking small businesses that 
are striving every day to create themselves and to grow, to 
expand and create jobs for others in my district and the 
ranking member's district and in districts all across this 
great Nation. It is vital that the 7(a) Loan Program operate in 
an efficient manner and on behalf of all our small businesses 
and the American taxpayer. We will use this conversation from 
today as we continue to review and examine SBA's loan programs.
    I ask unanimous consent that the members have 5 legislative 
days to submit statements and supporting materials for the 
record.
    Without objection, so ordered.
    This hearing is adjourned.
    [Whereupon, at 12:04 a.m., the Subcommittee was adjourned.]








                            A P P E N D I X

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Chairman, Ranking Member Alma Adams, and members of the 
Committee--my name is Tony Wilkinson and I am President and 
Chief Executive Officer of the National Association of 
Government Guaranteed Lenders (NAGGL), a national trade 
association of approximately 800 banks, credit unions, and non-
depository lenders who participate in the Small Business 
Administration's 7(a) loan guarantee program.

    The American entrepreneurial spirit is stronger than ever. 
Unfortunately, there is a very real gap in conventional bank 
lending in this country and even the most qualified business 
owners often struggle to secure financing that meets their 
business needs. A small business seeking capital is often 
offered loans with terms of 90-days to 3 years when they really 
need much longer term financing to thrive. The needs of this 
country's small businesses have always been a depository 
mismatch for banks that simply cannot, or may be reluctant to, 
tie up their capital in long-term loans for borrowers, 
especially in the wake of the Recession.

    At the heart of the SBA's success is the 7(a) loan program, 
the agency's largest public-private partnership with close to 
2,000 active participating private-sector financial 
institutions. These lenders make private-sector loans to small 
business borrowers who are creditworthy and healthy, but that 
fall through the very wide and well-known lending gap that 
American small businesses face. Instead of 90-day to 3-year 
term loans, the 7(a) loan program loan has an average term of 
16 years--in other words, the kind of long-term financing that 
small businesses need to grow and thrive, but that generally 
cannot be found in the conventional market.

    In Fiscal Year 2016, financial institutions large and small 
provided a little over $22.9 billion in loans to about 64,000 
small businesses nationwide through the 7(a) loan program. 
Unlike other federal programs that pass the cost on to the 
taxpayer, the 7(a) loan program is completely self-funded by 
the fees collected from lenders and borrowers. In fact, the 
7(a) loan program has returned more than $1.55 billion--that's 
with a ``b''--to the Treasury since Fiscal Year 2010. In other 
words, the 7(a) loan program is currently a revenue stream for 
the federal government.

    Numbers don't lie. About 500,000 jobs are estimated to be 
created or retained annually thanks to the 7(a) loan program. 
In addition, there are other benefits that are often hard to 
measure, like increased tax revenue governments, and community 
growth driven by small business expansion in small towns across 
the country.

    SBA 7(a) lending is a rare program where the federal agency 
has figured out how to get out of its own way and leverage 
private-sector expertise: lenders know how to make loans. SBA 
does not pick ``winners and losers'' because SBA does not make 
the loans and its 7(a) loan program is open to any eligible, 
creditworthy small business borrower. The 7(a) program does not 
supplant the lending market; it supplements it. SBA 
conditionally guarantees a percentage of the loan, leaving a 
healthy level of risk on the lenders as incentive to serve as 
prudent stewards of the program.

    I must stress this point because it is critical to 
understanding the lender's `skin in the game': SBA's guarantee 
is a contingent guarantee, which means that if a lender fails 
to fully follow 7(a) program requirements and meet its 
responsibilities, the SBA can--and does--reduce the amount of 
the guarantee payment to lenders. In the most egregious cases 
of imprudent lending, the SBA completely denies its liability 
under the guarantee. Therefore, the very nature of the 
guarantee relationship serves to assure that lenders comply 
with the various SBA regulations while engaging in quality 
lending. The guarantee program is a sharing of risk and not a 
complete transfer of risk. Beyond responsibilities to the SBA 
and the taxpayer, as responsible stewards of the program, 
lenders have an ongoing responsibility to their federal and 
state regulators, their internal regulatory oversight groups, 
and even their shareholders to ensure that safe and sound 
lending practices are maintained. In part, this `skin in the 
game' is what makes the private sector such ideal partners in 
the 7(a) loan program.

    NAGGL is pleased to testify in front of the Subcommittee on 
Investigations, Oversight, and Regulations because we recognize 
the benefit of quality lender oversight and strongly support 
the continuing implementation of SBA's oversight program. Since 
the introduction of federal credit reform, our member 
institutions have witnessed the impact that portfolio 
performance has on subsidy rates and program fees. And, just as 
important as maintaining healthy portfolio performance, proper 
lender oversight is needed to protect the main purpose of the 
7(a) loan program--its public policy mission to serve those 
small business borrowers in the community who cannot otherwise 
receive credit elsewhere on reasonable terms and conditions. An 
appropriate oversight approach must also include consideration 
of how well the public policy goals of the program are being 
met. In other words, effective oversight ensures that 
Congressional intent is met.

    As Members of the House Small Business Committee, and of 
the Congress as a whole, the maintenance of the SBA programs 
and the responsibility to oversee the agency starts and stops 
with you. As the 7(a) lending industry, we strongly join you in 
calling on both SBA lending partners and the SBA itself to 
continue their efforts to maintain the integrity of the 
program. Our joint goal is for the 7(a) loan program to stand 
the test of time in order to serve many more thousands of small 
businesses across the country. And, NAGGL members fully 
understand that it is in their individual and collective best 
interests that SBA continue to engage in a sustained, effective 
lender oversight program to meet that goal.

    History shows that the lending community is aware of the 
need to work with the SBA to police itself. For example, it was 
the 7(a) industry that raised concerns about the SBA's 
implementation and management of the now discontinued LowDoc 
Program soon after it was introduced. Why? There were no 
written policies for quite some time after the LowDoc pilot 
program was implemented. Similarly, in the 1990s, it was NAGGL 
that raised concerns to SBA and Congress about the practices of 
the industry's then largest lender. Also, in 2007, I testified 
before the Senate Small Business Committee to advocate for 
continued onsite reviews of 7(a) lenders, insisting that 
offsite reviews alone would not be enough to capture 
potentially risky behavior. I could go on, but the evidence is 
clear: lenders and the industry do care about the integrity of 
the 7(a) loan program.

    At the same time, it is also important that the lender 
oversight pendulum does not swing too far in the opposite 
direction resulting in lenders and borrowers finding the 
program unattractive, or resulting in duplication of existing 
oversight activities from other regulatory agencies (as well as 
a duplication of the costs already associated with those 
activities). It is an established fact that the bank and credit 
union industries already have substantial lender oversight from 
the Office of the Comptroller of the Currency (OCC), the 
Federal Deposit Insurance Corporation (FDIC), the National 
Credit Union Administration (NCUA), the Federal Reserve Board 
(FRB), and various state banking regulators. NAGGL has always 
believed that SBA should be required to demonstrate that it is 
adding value to current federal and state oversight efforts, 
not merely duplicating existing efforts.

    So, what is a current snapshot of SBA oversight? The SBA 
Office of Credit Risk Management (OCRM) is working overtime at 
smart, effective oversight of a fast-growing program.

    One notable improvement is OCRM's coordination with other 
federal bank regulators. In 2007, when testifying in the 
Senate, I advocated for SBA to partner with the federal and 
state banking regulators on procedures and lenders of interest 
to ensure that the safety and soundness testing of SBA 
portfolios was being conducted in a way that was consistent 
with the requirements imposed on participating lending partners 
by their regulators. I said then:

          ``We recognize that an inter-regulatory agency 
        partnership will require the commitment and cooperation 
        of several agencies; however, we believe that this type 
        of arrangement is necessary to provide the most cost 
        effective and meaningful determination of risk. We 
        would hope that the SBA is willing to pursue this 
        avenue prior to arbitrarily requiring that 
        participating lenders bear the cost of additional 
        regulatory examination.''

    In the final months of 2016, nearly ten years after that 
testimony, SBA entered a Memorandum of Understanding (MOU) with 
the FDIC to coordinate information sharing on mutual `lenders 
of interest'. NAGGL continues to encourage SBA to negotiate 
similar MOUs with the OCC and the Federal Reserve Board. This 
kind of coordination reduces duplication of federal efforts and 
is critical to an SBA oversight process capable of keeping up 
with lending program growth.

    It is important to note that just a decade ago, the SBA's 
oversight efforts only applied to the largest lenders, even 
though its own statistics showed lenders with portfolios under 
$1 million still pose a significant risk to the 7(a) loan 
program. And it was only recently, in December 2014, that the 
SBA created and implemented the PARRiS review system, a risk-
basked review protocol that oversees all 7(a) lenders and takes 
into account qualitative and quantitative performance data. 
PARRiS stands for ``Portfolio Performance,'' ``Asset 
Management,'' ``Regulatory Compliance,'' ``Risk Management,'' 
and ``Special Items.'' The PARRiS methodology is meant to 
better identify a lender's specific risk areas, assess the 
level of risk a lender poses to SBA, and to make 
recommendations for corrective action. Lenders are scored ``1'' 
through ``5'' as part of a data-driven lender-profile 
assessment. Lenders are also subject to multiple levels of 
scrutiny and reviews, from analytical and virtual to full 
onsite reviews.

    By most regulatory practice standards, having been 
implemented just two years ago, the PARRiS system is in its 
infancy. We encourage you, as authorizers, to allow the PARRiS 
system to continuing to develop ever greater sophistication and 
to support SBA's ongoing improvement efforts. For instance, 
this past January and after nearly two years of advocacy on the 
issue, NAGGL successfully shepherded through a policy change in 
PARRiS that establishes a lender mission rating in the 
methodology used to risk rate lenders. Prior to this change, 
PARRiS' lender risk rating did not account for traditionally 
lower performance of loans to underserved markets, yet lenders 
were simultaneously strongly encouraged to focus on underserved 
markets. Now, with this policy change to PARRiS a reality, 
lenders are given ``credit'' if they meet certain benchmarks in 
lending to an underserved market (small loans, loans to rural 
communities, minority-, women-, and veteran-owned businesses, 
startups and export businesses)--in other words, the oversight 
review process will no longer be at odds with the public policy 
mission of SBA lending.

    But these are only pieces of an effective lender oversight 
puzzle. Authorizers, appropriators, and the SBA must commit to 
an open flow of communication regarding what is needed to get 
the job done. For example, does OCRM have adequate resources to 
conduct the full range of their oversight activities? Is there 
enough OCRM staff? These questions are especially relevant as 
we see continued increased demand for the SBA programs from 
small business borrowers.

    Since Fiscal Year (FY) 2014, the authorization cap has 
increased by 51% (Note: while the program operates at zero 
subsidy, it relies on an authorization cap set by the 
Committees on Appropriations in close conjunction when the 
authorizers every FY). The net dollars in loans that were 
disbursed from participating banks to small business borrowers, 
the amount of lending increased by about 28%. This growth is a 
result of a confluence of factors, but most pertinent to this 
conversation is that as a gap financing program lending where 
borrowers cannot find capital conventionally, we should be 
growing at a time when conventional lending to small businesses 
plummeted post-Recession and has yet to reach pre-Recession 
levels. The very fact that volume increased at a time when 
conventional lending receded from the market clearly 
demonstrates that the 7(a) loan program is indeed doing its job 
as a gap financing program.

    No one could predict how many small business borrowers 
would turn to the 7(a) loan program in the wake of the 
Recession, nor how many lenders would see the SBA as an avenue 
for being able to help small business borrowers that they were 
otherwise turning away. While the gap in access to capital has 
always existed for small business borrowers, the climate post-
Recession exacerbated this gap.

    With the leadership and action of the House Small Business 
Committee, the Senate Small Business Committee, the House and 
Senate Committee on Appropriations, and House and Senate 
Leadership, the 7(a) program has continued to serve small 
business borrowers despite the fact that borrower demand 
reached the program's authorization cap prior to the end of the 
fiscal year in both FY 2014 and FY 2015. In both of those 
fiscal years, the House and Senate were able to pass language 
that allowed for the program to be reinstated and avoid a mid-
fiscal year shutdown. Allow me to take a moment to thank you 
all for your continued support of the program.

    7(a) volume is a sign of great success for the program. 
This period of growth is also the perfect time to ensure 
oversight is run appropriately as our potential balance sheet 
has more than doubled in size over approximately two-and-a-half 
years. As a trade association, NAGGL believes it is perfectly 
reasonable to ask questions about whether the oversight 
capabilities of SBA have grown commensurate with the increased 
volume of the lending program.

    NAGGL and SBA lenders are incredibly proud of who we serve 
and the role we play in each of your individual districts. Over 
the past several years, lending to nearly every underserved 
market--from veterans, rural communities, urban areas, women, 
Hispanics, and African Americans, to name a few--has increased. 
While we can always do more to improve access to capital to 
these markets, we are confident that the 7(a) lending industry 
is fulfilling the intent of Congress to serve the country's 
small businesses. Put simply, the issues that 7(a) loans solve 
are the issues that every Main Street across the country 
struggle with, and which every legislator, whether Republican 
or Democrat, wants to desperately find an answer to over the 
next four years--jobs, community rejuvenation, and opportunity.

    Chairman Kelly and Ranking Member Adams--I would be pleased 
to answer any questions.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










                              Testimony of


                          Edward C. Ashby, III


                            On behalf of the


                      American Bankers Association


                               before the


       Subcommittee on Investigations, Oversight and Regulations


                                 of the


                      Committee on Small Business


                 United States House of Representatives


                             March 9, 2017


    Chairman Kelly, Ranking Member Adams, and members of the 
Subcommittee, I am Ted Ashby, President and CEO of Surrey Bank 
& Trust, Surrey Bank is a community bank headquartered in Mt. 
Airy, North Carolina with $278 million in total assets. I 
appreciate the opportunity to present the views of the American 
Bankers Association (ABA) on the state of the Small Business 
Administration's (SBA) 7(a) Loan Program and the importance of 
this program to my community and banks like mine, The ABA is 
the voice of the nation's $16 trillion banking industry, which 
is composed of small, mid-size, regional and large banks that 
together employ more than 2 million people, safeguard $12 
trillion in deposits and extend more than $9 trillion in loans.

    Our bank was chartered in 1996 with a focus on business 
lending. At my bank, as is true of my banker colleagues around 
the country, we are intensely focused on building and 
maintaining long-term relationships with our customers. We view 
our customers not as numbers but as individuals and business 
owners. The success of Surrey Bank is inextricably linked to 
the success of the communities we serve. They are, after all, 
our friends and neighbors.

    Small businesses are an engine of growth and job creation 
for the U.S. economy. In order for small businesses to grow, 
they require safe and reliable funding. Community banks in 
particularly focus intensely on small business lending. 
According to the FDIC, community banks increased small loans to 
businesses (defined as less than $1 million) at more than twice 
the rate of non-community banks in 2016 and account for 43 
percent of all small loans to businesses.

    The SBA programs are an important part of business lending 
for many banks. It helps fill a critical gap, particularly for 
early stage businesses that need access to longer-term loans. 
The guarantee helps reduce the risk and capital required for 
banks and facilitates loans that might never have been made 
without this important level of support.

    In 1999, Surrey Bank began using SBA and other government 
sponsored credit enhancement programs as a tool in its strategy 
of helping local companies meet their credit needs. As a 
portfolio lender, this allowed our bank to attract a wider 
range of customers and improve the financial condition of the 
bank. SBA granted Surrey Bank its Preferred Lender Status in 
2003 after determining the bank had sufficient experience and 
resources to properly administer the program. Since that time, 
the bank has actively participated in the SBA 7(a) Loan Program 
and has earned ``Community Bank of the Year'' award in North 
Carolina twelve of the past fourteen years.

    Participation in the SBA 7(a) Loan Program is an integral 
part of our business model as a commercial bank. The bank has 
$212 million in outstanding loans, of which about 67% (or $142 
million) is for business related purposes. Currently, the bank 
has $34.7 million in SBA loans of which $26.5 million is 
guaranteed by SBA. Thus, a total of 18.7% of our business 
related loans and 12.5% of all loans have SBA guaranties.

    The success of the SBA 7(a) Loan Program for my community 
and Surrey Bank is evident by the 174 active loans with an 
average loan size is $199,366. As an example, the bank extended 
credit to a pre-cast concrete company that opened in 2007. 
Economic activity was far below expectations and the borrower 
experienced difficulty generating working capital to invest in 
new work orders. The bank used SBA's Cap Lines Contracts Loan 
Program to fund the individual orders. This company now 
generates sufficient cash flow to funds its operations without 
SBA or bank assistance. Also, the bank extended credit to a 
start-up operation engaged in traffic and safety control for 
highway and bridge construction. The company started in 2004 
with four employees and two trucks. Since inception, the bank 
has extended them 23 SBA loans over 12 years to fund expansion. 
The company now has annual revenue over $12,000,000, a fleet of 
over one-hundred vehicles and 90 employees. Our success is 
replicated over and over across communities in this country. 
This is why ABA supports the Small Business Committee's effort 
to build on the positive aspects of the Program and consider 
improvements that would benefit the business community.

    In my comments below, I will outline some of the positive 
aspects of the program and provide some suggestions for 
improvements to make the program even more effective.

    Positive Aspects of SBA 7(a) Loan Program

    Let me begin by complimenting the staff in the SBA's North 
Carolina District Office. Our bank has received a high level of 
support and encouragement from District Director Lynn Douthette 
and her staff. The professionalism and dedication to help small 
businesses and banks is part of the equation of success of the 
SBA programs. In addition, the complementary local programs, 
particularly the free counseling through SCORE (Service 
Organization of Retired Executives) has proven very helpful in 
mentoring business clients.

    Here are some key features of the SBA Program that are very 
positive:

          > The Express Loan Program is very effective. It 
        reduces the level of paperwork, utilizes the internal 
        loan policies of the originating bank and reduces the 
        cost of the transaction to the small business customer.

          > Loans to start-up businesses require a business 
        plan as part of the approval process. This requirement 
        has proven very useful in helping the owner to consider 
        various facets of the business that are essential to 
        achieve profitability and grow the company.

          > The program allows the use of projections in start-
        up businesses to underwrite cash flow to support the 
        credit request. Under conventional financing, banks 
        would normally require an abundance of collateral or a 
        guarantor with a high level of liquidity to grant 
        credit.

          > The credit score generated by the SBA software to 
        determine eligibility is very helpful in providing fast 
        response times to prospective borrowers.

          > The program provides for extended loan 
        amortizations on secured loans at a higher percentage 
        of the useful life of the collateral. This improves the 
        borrower's cash flow.

          > The advance rates on secured loans are higher than 
        general loan policy. This reduces the amount of working 
        capital a small business needs to invest into the fixed 
        assets of the business.

          > The program provides for a long-term commitment 
        without the time, expense and uncertainty associated 
        with of balloon payments typically used in conventional 
        financing.

          > Loans can be underwritten based on cash flow 
        without relying on collateral coverage or book equity 
        in the business as a condition for credit.

          > The use of ``Delegated Authority'' for Preferred 
        Lenders allows the bank to modify loans. This provides 
        the borrower an opportunity to work through short term 
        cash flow issues and or reschedule debt payments 
        without being forced into liquidation.

          > Veterans enjoy reduced fees on loans between 
        $150,000 and $700,000.

    Opportunities for Improving the SBA 7(a) Loan Program

    Below are some examples of how the program can be improved, 
primarily relating to the servicing of SBA loans:

          > SBA loans cannot be consolidated or refinanced by 
        the same lender. In instances where the borrower is 
        experiencing rapid growth, the bank is required to make 
        multiple loans on the same collateral. Frequently, 
        loans are cross collateralized, which make extending 
        additional loans more complex. Servicing and 
        administration of the loans is difficult for the 
        borrower and the bank.

          > SBA guidelines no longer allow a bank to obtain a 
        guaranty to avoid regulatory loans-to-one-borrower 
        limitations. This is a disadvantage to small banks that 
        are portfolio lenders attempting to meet the credit 
        needs of customers in their market. A carve-out for 
        banks that are under $1 billion in assets engaged in 
        portfolio lending should be considered.

          > The use of subcontractors in the liquidation 
        process at times resulted in confusion over the correct 
        version of the Standard Operating Procedures (SOP) used 
        to determine eligibility for repurchase. This caused 
        delays in the liquidation process. We suggest sub-
        contractors receive additional training on identifying 
        the appropriate SOP in affect when the loan was 
        originated.

          > A loan is liquidated based on the type of loan 
        program. When a borrower has multiple loans, 
        liquidation can involve multiple service centers in 
        different states. This creates a duplication of work 
        for the bank. More importantly, borrowers have a 
        difficult time making an ``Offer in Compromise'' until 
        all claims are processed.

          > The SBA One platform is not fully operational, 
        which results in duplication of work to produce the 
        forms required to properly close the loan.

    Conclusion

    The health of the banking industry and the economic 
strength of the nation's communities are closely interwoven. We 
strongly believe that our communities cannot reach their full 
potential without the local presence of a bank--a bank that 
understands the financial and credit needs of its citizens, 
businesses, and government. The SBA 7(a) Loan Program is a 
success and should be vigorously supported in the future. It 
has encouraged economic growth in our community and allowed 
Surrey Bank to meet the credit needs of many small businesses. 
The positives of the program are many and the areas of 
improvement are primarily related to servicing aspects of the 
program.

    Before closing, I want to express the concern shared by 
many of my banking colleagues that the community banking model 
we know today will collapse under the massive weight of rules 
and regulations. Lack of earning potential, regulatory fatigue, 
lack of access to capital, limited resources to compete, 
inability to enhance shareholder value and return on 
investment, all push community banks to sell. The Dodd-Frank 
Act has driven all of these in the wrong direction and is 
leading to consolidations with very real consequences for local 
communities.

    Last year 251 banks disappeared; since Dodd-Frank was 
enacted, nearly 2,000 banks have merged or closed their doors. 
For community banks, it goes beyond just our parochial 
interests. We are very much a part of our community. It is why 
every bank in this country volunteers time and resources to 
make their communities better. If the relentless pressures on 
our small banks are not relieved, the loss will be felt far 
beyond the impact on any bank and its employees. It will mean 
something significant has been lost in the community once 
served by that bank. This is why it is imperative that the 
Administration and Congress take steps to ensure and enhance 
the banking industry's capacity to serve their customers, 
thereby facilitating job creation and economic growth.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 [all]
</pre></body></html>
